June 21, 2004

The Honorable Joseph I. Lieberman
Ranking Minority Member
Committee on Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senator Lieberman:

In response to your request, we conducted a follow-up audit of the Department of
Transportation’s (Department) Highway-Rail Grade Crossing Safety Program.
Specifically, you asked us to (1) evaluate the progress the Department has made to
improve grade crossing safety and meet its goal by the end of 2003; (2) assess the
Department’s 1994 Action Plan initiatives to improve grade crossing safety and
actions to complete the 1999 Office of Inspector General (OIG) recommendations;
and (3) identify best practices, research studies, and strategies that contribute to
reductions in the number of accidents and fatalities at grade crossings. A copy of
our report on the Department’s grade crossing safety program is enclosed.1

We found that the Department came close to meeting its 1994 Action Plan goal of
fewer than 2,500 grade crossing accidents and 300 fatalities at the end of 2003.
Much of this progress was largely attributable to addressing the “low-hanging
fruit,” such as upgrading crossings with automatic gates and flashing lights. To
achieve further improvements will require the Department to adopt a more
targeted approach that focuses on states and public crossings that continued to
have the most accidents, which is the intent of most of our recommendations. Our
analysis of accident and fatality trend data found that (1) six states continued to
have a large number of public grade crossing accidents; (2) accidents continued to
occur at public grade crossings equipped with automated warning devices;
(3) some public grade crossings with warning signs and pavement markings
continued to have accidents; (4) motorists caused most public grade crossing
accidents; and (5) grade crossing closures continued to occur, but at a slower pace.

We also found that the Federal Railroad Administration’s (FRA) progress reports
and statistics did not include all rail transit grade crossing accidents and fatalities,
as FRA had agreed to report in response to our 1999 recommendation. Similarly,

1
 OIG Report No. MH-2004-065, Audit of the Highway-Rail Grade Crossing Safety Program, June 16, 2004.
                                                                                                                    2

    FRA agreed to develop and implement tools to create a comprehensive and
    accurate national grade crossing inventory database, but we found that its database
    continues to contain inaccurate information. Consequently, the Department will
    need to closely monitor initiatives implemented over the life of the new national
    grade crossing safety action plan that was issued on June 15, 2004.2

    The Department concurred with all six of our recommendations to further improve
    grade crossing safety and proposed actions to address them. However, we
    requested more details on the specific steps the Department will take and the time
    frames for completing the following actions proposed for four of our
    recommendations. These proposed actions are to develop individual action plans
    for the states that continue to have the most accidents, include light and heavy rail
    transit accidents in the new plan’s goals and statistics, improve the accuracy and
    completeness of the national grade crossing inventory data, and ensure that states
    submit annual evaluation reports on expenditures of Federal safety improvement
    funds.

    If I can answer any questions or be of further assistance, please contact me at
    (202) 366-1959, or my Principal Assistant Inspector General for Auditing and
    Evaluation, Alexis M. Stefani, at (202) 366-1992.

    Sincerely,



    Kenneth M. Mead
    Inspector General

    Enclosure




2
 The Secretary of Transportation’s Action Plan for Highway-Rail Crossing Safety and Trespass Prevention, June 15,
 2004.
AUDIT OF THE HIGHWAY-RAIL GRADE
  CROSSING SAFETY PROGRAM
      Federal Railroad Administration
      Federal Highway Administration
       Federal Transit Administration

       Report Number: MH-2004-065
        Date Issued: June 16, 2004
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of the Highway-                                  Date:    June 16, 2004
           Rail Grade Crossing Safety Program
           Report No. MH-2004-065
                                                                                     Reply to
                                                                                     Attn. of:   JA-40
           Alexis M. Stefani
  From:    Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Railroad Administrator
           Federal Highway Administrator
           Federal Transit Administrator


           This final report presents the results of the Office of Inspector General’s (OIG)
           second audit of the Department of Transportation’s (Department) Highway-Rail
           Grade Crossing Safety Program. The report focuses on public highway-rail grade
           crossings, because these crossings experienced 89 percent (33,153) of all accidents
           and 90 percent (4,074) of all fatalities from 1994 through 2003, and funding
           provided under the Department’s safety program is directed at public crossings.
           The audit was conducted at the request of Senator Joseph Lieberman, Ranking
           Member, Senate Committee on Governmental Affairs.

           In September 1999, the OIG reported that the Department had made progress
           toward achieving its 10-year goal to reduce highway-rail grade crossing accidents
           and fatalities by 50 percent (fewer than 2,500 accidents and 300 fatalities) by the
           end of Calendar Year (CY) 2003.1 We also reported that the Department had
           made progress addressing 23 of the 50 grade crossing safety initiatives in its
           1994 Grade Crossing Safety Action Plan (1994 Action Plan). To further improve
           grade crossing safety, the 1999 OIG report recommended coordinating among the
           Operating Administrations on cost-effective safety strategies, monitoring the use
           of Federal grade crossing safety improvement funds, and establishing mandatory
           reporting requirements to improve the accuracy and completeness of national

           1
            OIG Report No. RT-1999-140, Report on Rail-Highway Grade Crossing Safety, September 30, 1999. After this report
            was issued, the Department began referring to its crossing improvement initiatives as the Highway-Rail Grade
            Crossing Safety Program.
                                                                                                                            2


grade crossing inventory and accident data. See Exhibit A for the status of our
1999 recommendations.

The objectives of this audit were to: (1) evaluate the progress the Department has
made to improve grade crossing safety and meet its goal by the end of 2003;
(2) assess the Department’s 1994 Action Plan initiatives to improve grade crossing
safety and actions to complete the 1999 OIG recommendations; and (3) identify
best practices, research studies, and strategies that contribute to reductions in the
number of accidents and fatalities at grade crossings. See Exhibit B for a full
description of our audit scope, methodology, and prior audit coverage.
Trespassing accidents and fatalities were not included in this audit.

In response to a congressional directive, the Department prepared a new national
grade crossing safety action plan that was issued on June 15, 2004.2 On
February 2, 2004, we briefed the Department on our audit results and
recommendations so it could use that information to further target safety
improvements proposed in a draft of the new national action plan. See Exhibit C
for additional background information on Department and state responsibilities for
improving grade crossing safety.

RESULTS IN BRIEF
Under the 1994 Action                                 Figure 1: Accident and Fatality Trends for
Plan, the Department                                     Public and Private Grade Crossings
came close to meeting                                         CY 1994 through CY 2003
its goal of fewer than
2,500 accidents and                                   6,000                                              900
300 fatalities at the end                             5,500
                                                                                                         800
of 2003.3 As shown in                                 5,000
                                                                                                         700
                                                      4,500
Figure 1, the number of                               4,000                                              600
                                          Accidents




grade crossing accidents
                                                                                                               Fatalities

                                                      3,500
                                                                                                         500
                                                      3,000
fell 41 percent, from                                 2,500
                                                                                                         400

4,892 at the end of 1993                              2,000                                              300

to 2,909 at the end of                                1,500
                                                                                                         200
                                                      1,000
2003. During this same                                 500
                                                                                                         100

period, the number of                                    0                                               0
                                                           93

                                                           94

                                                           95

                                                           96

                                                           97

                                                           98

                                                           99

                                                           00

                                                           01

                                                           02

                                                           03




fatalities decreased from
                                                         19

                                                         19

                                                         19

                                                         19

                                                         19

                                                         19

                                                         19

                                                         20

                                                         20

                                                         20

                                                         20




                                                                    Calendar Year
626 to 325 or by
                                                                   Accidents         Fatalities
48 percent.
                                        Source: Federal Railroad Administration

2
  The Secretary of Transportation’s Action Plan for Highway-Rail Crossing Safety and Trespass Prevention was issued
  on June 15, 2004.
3
  The 2003 accident and fatality statistics were obtained from the Federal Railroad Administration, as of March 9, 2004.
  Throughout this report, unless otherwise indicated, calendar year data are reported.
                                                                                                                       3



While impressive, the Department’s grade crossing accident statistics do not
include all of the rail transit grade crossing accidents and fatalities, as the Federal
Railroad Administration (FRA) had agreed to report in response to our 1999
recommendation. We found that FRA’s grade crossing progress report statistics
and accident database do not include light and heavy rail transit accidents and
fatalities4 that occurred at grade crossings owned by transit authorities and funded
by the Federal Transit Administration (FTA). However, commuter rail transit
grade crossing accidents are included in FRA’s grade crossing accident database5
and progress report statistics, because commuter rail transit trains6 share tracks
owned by freight railroad companies, and all railroad accidents must be reported
to FRA.

We determined that 708 of the 988 accidents (72 percent) and 24 of the
96 fatalities (25 percent) that occurred at rail transit grade crossings from 1999
through 2003 were not included in FRA’s accident and fatality statistics.
Although all of the 988 rail transit grade crossing accidents and 96 fatalities were
reported to FTA, only 280 commuter rail transit accidents and 72 fatalities were
also reported to FRA. Under the new action plan, without a complete record of
rail transit accidents and fatalities, the Department will not be able to determine
where additional grade crossing safety improvements may be needed on light and
heavy rail transit systems.

The significant progress achieved under the 1994 Action Plan was largely
attributable to closures of 41,070 public and private grade crossings, upgrades of
3,985 crossings with active warning devices7 (such as automatic gates, flashing
lights, and highway traffic signals), and annual education campaigns by Operation
Lifesaver,8 which reached millions of people. The Department’s 1994 Action Plan
addressed much of the “low-hanging fruit” through its initiatives to close grade
crossings and to install automatic gates and flashing lights at public crossings with
a high probability for accidents. As a result, it will be difficult for the Department
to achieve the magnitude of reductions accomplished over the past 10 years
without a careful analysis of accident trends and a plan that strategically targets
remaining problem areas.

4
  Transit grade crossing accidents and fatalities occurring on light rail transit systems, which usually transport
  passengers in single or two-car trains (streetcars or trolleys), and heavy rail transit systems that operate high speed,
  rapid acceleration, multi-car passenger trains (subways) are not reported to FRA.
5
  FRA maintains the national grade crossing accident database, which contains mandatory information provided by
  railroads on all grade crossing accidents and fatalities.
6
  Freight railroad companies are required to report all grade crossing accidents that occur on their tracks to FRA,
  including those involving commuter rail transit trains.
7
  Active warning devices are activated by approaching trains to warn motorists and pedestrians to yield to train traffic.
8
  Operation Lifesaver, Incorporated, is a nationwide, nonprofit public education program dedicated to improving safety
  at grade crossings and on railroad property. It receives funds from Federal, state, and private sources.
                                                                                                                        4



To determine where grade crossing accidents were occurring, we reviewed FRA’s
accident and fatality trend data for the 1994 Action Plan period, 1994 through
2003. Our analysis identified the following areas for targeting safety
improvements:

• Some states continued to have a large number of public grade crossing
  accidents. Six states—California, Illinois, Indiana, Louisiana, Ohio, and
  Texas—had the most public grade crossings accidents. These six states
  accounted for 37 percent of the nation’s public grade crossing accidents during
  the 10-year period. Additionally, about 1,810 public grade crossings had more
  than one accident a year, which ranged from 2 to 7 accidents per crossing.
  California, Indiana, Louisiana, Mississippi, and Texas had the most public
  grade crossings with multiple accidents. Each of these states should develop
  an action plan that identifies specific solutions for crossings that continue to
  have accidents.

• Accidents continued to occur at public grade crossings equipped with
  active warning devices. Nearly 17,000 or 51 percent of the public grade
  crossing accidents occurred at crossings already protected with automatic or
  active warning devices during the 10-year period. Of the 1,810 multiple
  accidents at public grade crossings, 1,055 or 58 percent occurred at crossings
  already equipped with active warning devices. Flexible traffic channelization
  devices, which in 2003 cost about $15,000, can improve safety by 80 percent at
  gated crossings, according to an FRA report to Congress on the North Carolina
  Sealed Corridor Project.9 As of March 2004, FRA’s database reported
  8 states—California, Minnesota, Oklahoma, Pennsylvania, Texas, Virginia,
  Washington, and Wisconsin—had installed flexible traffic channelization
  devices at 23 grade crossings, ranging from 1 to 10 crossings per state. These
  devices or other cost-effective physical barriers should be installed at public
  grade crossings already equipped with active warning devices that continue to
  have accidents.

• Some public grade crossings with passive warnings continued to have
  accidents. During the 10-year period, about 16,000 or 48 percent of public
  grade crossing accidents nationwide occurred at crossings with passive
  warnings,10 such as signs, pavement markings, and other non-train activated

9
 As stated in FRA’s Report to Congress on Phase I of North Carolina’s Sealed Corridor grade crossing safety
  improvement project, May 2002. The actual change in risk at any particular crossing might be different, depending on
  changes in variables, such as annual average daily traffic, train movements, or train speeds.
10
   Passive warnings consist of crossbucks (x-shaped railroad crossing signs that warn motorists to yield to train traffic),
  stop signs, advanced warning signs, pavement markings, and other non-train activated warnings (flag-waving railroad
  or law enforcement personnel) that advise motorists of the presence of a grade crossing.
                                                                                                               5


     notifications. Passive warnings are installed at 755 or 42 percent of the public
     grade crossings that had multiple accidents. These grade crossings represent
     “low-hanging fruit” that could be targeted for additional safety improvements.
     The over 82,000 public grade crossings with passive warnings should be
     monitored and active warning devices should be added to those crossings
     where multiple accidents have already occurred.

• Motorist behavior caused most public grade crossing accidents. Risky
  driver behavior or poor judgment accounted for 31,035 or 94 percent of public
  grade crossing accidents and 3,556 or 87 percent of fatalities, during the 10-
  year period. With the exception of 22 train passengers and railroad employees,
  all of these fatalities were motorists. According to accident reports, motorists
  failed to stop at grade crossings or drove around activated automatic gates. Of
  the 10 states we visited, only Illinois had passed photo enforcement legislation
  to deter grade crossing traffic violations. Further, only 4 of the 10 states we
  visited—Illinois, Mississippi, Tennessee, and Texas—had imposed specific
  grade crossing penalties for motorists’ violations. Safety could be improved
  with enhanced education, legislation, and traffic enforcement to target motor
  vehicle drivers who violate grade crossing safety laws and warnings.

• Grade crossing closures continued to occur, but at a slower pace. Without
  a goal for closing grade crossings in the 1994 Action Plan, closures continued
  to occur, but the pace slowed after 2000. A total of 41,070 grade crossings
  were closed during the 10 years the 1994 Action Plan was in effect. Prior to
  2000, annual grade crossing closures averaged about 4,700. However, grade
  crossing closures continued at a much slower pace after 2000, averaging about
  2,800 annual closures. If states establish an annual goal for closing grade
  crossings, safety could be further enhanced.

In addition, the Department will need to closely monitor initiatives implemented
over the life of the new action plan to identify needed adjustments. Therefore,
accurate and complete data on the characteristics of all public grade crossings will
be required to monitor the new action plan’s effectiveness. Although FRA agreed
to develop and implement tools to create a comprehensive and accurate national
grade crossing inventory database in response to our 1999 recommendation,11 its
database continues to contain inaccurate information. We found that FRA’s
inventory database did not accurately document grade crossing characteristics for
24 of 36 or 67 percent of the public grade crossings we visited. For example, the
inventory database reported that 6 of the 24 public grade crossings we visited had
warning signs or flashing lights, while we observed automatic gates. Accurate and

11
 FRA maintains the national grade crossing inventory database, which contains voluntary information from Federal,
 state, and railroad officials on the characteristics of grade crossings.
                                                                                   6


complete inventory data on the characteristics of grade crossings, particularly the
type of warning devices, could help the Department better monitor whether states
and grade crossings are improving under the new plan.

Finally, it will become more important for the Federal Highway Administration
(FHWA) to review annual evaluation reports on states’ categorical expenditures of
Federal safety improvement funds. Although states are required to report to
FHWA the annual amount of Federal grade crossing safety improvement funds
spent on the installation of protective devices versus elimination of hazards, we
found that only 2 of the 10 states visited had submitted annual evaluation reports
for 3 of the fiscal years covered in our audit. These evaluation reports should
contain essential information that could also help to direct scarce Federal funds to
effective safety improvements.

RECOMMENDATIONS
On February 2, 2004, we briefed Department officials on the report’s audit results
and recommendations so the information could be considered in drafting the new
national grade crossing safety action plan. We noted that the Department’s draft
action plan addressed three of the areas targeted for improvement that are
presented in the final action plan and this report. The new action plan encourages
states to install flexible traffic channelization devices and other cost-effective
physical barriers at grade crossings that are already equipped with active warning
devices, but continue to have accidents. It also states that the Department will
measure grade crossing safety in terms of accident rates, and assess progress by
conducting a comprehensive evaluation of the plan’s effectiveness.

In addition, we are recommending that the Department in implementing its new
action plan for grade crossing safety:

1. Identifies the states that have the most grade crossing accidents year after year,
   particularly at crossings that have experienced multiple accidents. Each of
   these states should develop an action plan that identifies specific solutions for
   improving safety at those crossings that continue to have accidents.

2. Encourages states to enhance educational programs to increase safety
   awareness, develop legislation to modify risky driver behavior through photo
   enforcement, and increase traffic enforcement strategies, including imposing
   stricter penalties, to target motor vehicle drivers who violate grade crossing
   safety laws and warnings.

3. Encourages states to set annual goals for closing grade crossings and
   strengthen their financial incentives to local governments for closures.
                                                                                  7



4. Identifies a method for including FTA’s data on light and heavy rail transit
   grade crossing accidents and fatalities in the new action plan’s goals and
   statistics.

5. Promotes mandatory reporting requirements for railroads and states through
   rulemaking or legislation to improve the accuracy and completeness of FRA’s
   national grade crossing inventory data, to identify high-risk crossings and
   strategies to mitigate risks. The data should also be used to monitor the
   effectiveness of the new action plan’s strategies, identify needed changes, and
   make adjustments, as necessary. FRA and FHWA should work cooperatively
   to accomplish mandatory inventory reporting.

6. Ensures that states comply with the annual requirement to submit evaluation
   reports to FHWA on expenditures of Federal safety improvement funds,
   including the cost and safety benefits of crossing improvements.

We discussed this report with Department officials, and their written comments
(attached as Appendices to this report) have been incorporated, as appropriate.
The Department concurred with all six of our recommendations to enhance safety
through its new national grade crossing action plan. The Department’s proposed
actions to encourage states to enhance educational programs, develop legislation,
increase traffic enforcement strategies, and set annual goals for closing grade
crossings were responsive to our recommendations. However, we are requesting
more details on the specific steps the Department will take and the time frames for
completing the actions proposed for the following four recommendations. These
proposed actions are to develop individual action plans for the states that continue
to have the most accidents, include light and heavy rail transit accidents in the
new plan’s goals and statistics, improve the accuracy and completeness of the
national grade crossing inventory data, and ensure that states submit annual
evaluation reports on expenditures of Federal safety improvement funds.
                                                                                                                    8




RESULTS

Significant Progress Was Achieved Under the 1994 Action Plan
During the 10 years the 1994 Action Plan was in effect, the Department and states
made substantial progress in improving grade crossing safety and came close to
meeting the plan’s goal of fewer than 2,500 accidents and 300 fatalities by
December 31, 2003. The number of grade crossing accidents declined 41 percent
from 4,892 at the end of 1993 to 2,909 at the end of 2003. During this same
period, fatalities decreased by 48 percent, from 626 to 325. When considering
train miles traveled during this period, the rate of accidents and fatalities fell by
51 percent and 57 percent, respectively. Table 1 shows the number and rate of
accidents and fatalities that occurred under the 1994 Action Plan.

Table 1: Public and Private Annual Grade Crossing Accidents and Fatalitiesa
                             1994 through 2003

  End of Calendar            Number of          Accident         Number of          Fatality       Train Miles
        Year                 Accidents           Rateb           Fatalities          Rateb         (in millions)
   1993 (base year)            4,892              7.97             626               1.02              613.9
        1994                   4,979              7.60             615               0.94              655.1
        1995                   4,633              6.92             579               0.86              669.8
        1996                   4,257              6.34             488               0.73              670.9
        1997                   3,865              5.71             461               0.68              676.7
        1998                   3,508              5.14             431               0.63              682.9
        1999                   3,489              4.90             402               0.56              712.5
        2000                   3,502              4.84             425               0.59              722.9
        2001                   3,237              4.55             421               0.59              711.6
        2002                   3,064              4.20             355               0.49              728.9
        2003                   2,909              3.89             325               0.43              748.6
  1994 Goal (Ended             2,500                               300
 December 31, 2003)
    Total Change                -41%              -51%              -48%             -57%               22%
     1994-2003
Source: FRA
a
 FRA’s accident database does not include information on all accidents between transit trains and motor vehicles.
b
  Rate equals number of accidents or fatalities times one million divided by train miles traveled.


Although the Department’s progress in reducing the number of accidents and
fatalities has been significant, FRA’s grade crossing accident statistics have not
included all rail transit grade crossing accidents and fatalities. Rail transit
authorities are required to report all grade crossing accidents that occur on the
systems they own and operate to FTA, but not to FRA. In contrast, commuter rail
transit grade crossing accidents are reported to FRA because transit authorities
share tracks owned by freight railroad companies. FRA requires the railroad
companies to report all grade crossing accidents to its accident database.
                                                                                    9



The 1999 OIG report recommended integrating FTA’s rail transit grade crossing
accidents into FRA’s national accident database to ensure timely reporting of all
grade crossing accidents and fatalities. FRA agreed to work with FTA to
incorporate light and heavy rail transit grade crossing accidents and fatalities into
the accident statistics of the 1994 Action Plan, but not into FRA’s national
database. However, we identified 708 of 988 (72 percent) rail transit grade
crossing accidents and 24 of 96 (25 percent) fatalities from 1999 through 2003 that
were not included in FRA’s accident statistics. The Department’s ability to target
light and heavy rail transit grade crossings for additional safety improvements was
restricted because complete historical accident, fatality, and inventory data on
these crossings were not available under the 1994 Action Plan.

We also found that the 1994 Action Plan measured grade crossing safety progress
in terms of the absolute number of accidents and fatalities, which makes it easier
to identify trends. Under the Government Performance and Results Act (GPRA),
the Department reports a grade crossing safety accident rate to Congress, which is
based on millions of miles traveled by trains and trillions of miles traveled by
roadway vehicles (automobiles, trucks, and buses). The Department intends to use
the GPRA rate to measure progress under the new national action plan. However,
the use of both measures may be the best way to monitor progress.

From Fiscal Year (FY) 1994 through FY 2003, Federal grade crossing safety
funding remained fairly constant, averaging about $153 million annually. States
used at least half of these funds to install additional safety devices at public grade
crossings. As a result, the total number of public grade crossings with active
warning devices increased by 3,985 or 7 percent, from 59,456 or 35 percent at the
beginning of 1994 to 63,441 or 42 percent at the end of 2003. The largest increase
in active warning devices during this period was the addition of 8,293 automatic
gates at public grade crossings. States also used Federal funds to close 41,070
grade crossings, separate 274 grade crossings from railroad tracks (grade
separations), and eliminate hazards at grade crossings.

Other initiatives under the 1994 Action Plan enhanced safety and contributed to
the significant reductions in grade crossing accidents and fatalities. These
included modifying the Grade Crossing Safety Program to permit Federal
incentive payments of $7,500 per crossing to local governments for closures and
providing guidance to states on installing active warning devices or signs at grade
crossings to alert motorists of train traffic. In addition, Operation Lifesaver
expanded public education and awareness of grade crossing safety by informing at
least 14 million people annually about the potential dangers at grade crossings. A
complete listing of the 1994 Action Plan’s 50 grade crossing safety initiatives is
provided in Exhibit D, including the status of each initiative and actions taken.
                                                                                 10


Grade Crossing Trends Indicate Targeted Strategies Are Needed
in the New National Action Plan
As the Department develops a new national action plan for grade crossing safety,
it will be challenged to continue to achieve the significant reductions
accomplished under the 1994 Action Plan. By closing grade crossings and
installing automatic gates and flashing lights at public crossings with a high
probability for accidents, much of the “low-hanging fruit” (safety initiatives that
were the easiest to implement) was addressed under the 1994 Action Plan.

Further progress will depend on the Department’s ability to target future efforts on
states and public grade crossings that continue to have accidents and to deploy
strategies that have proven most effective. Our analysis of FRA’s grade crossing
accident data, from 1994 through 2003, indicates the Department should take a
more focused approach that targets states and crossings with the highest number of
accidents.

Focus safety improvements on states and public grade crossings that continue
to have the most accidents. During the 10 years that the 1994 Action Plan was in
effect, six states—California, Illinois, Indiana, Louisiana, Ohio, and Texas—
accounted for 37 percent of the nation’s public grade crossing accidents and
41 percent of its fatalities. These states had the largest number of public grade
crossings, which collectively comprised about 29 percent of the nation’s total. As
train and motor vehicle traffic increased within these states the probability of
trains colliding with motor vehicles at crossings also increased. In 2003, the
average daily vehicle traffic at public grade crossings that had accidents was
44 percent higher (3,849 motor vehicles) than at public crossings without
accidents (2,145 motor vehicles). Figure 4 shows the number of accidents that
occurred by state at the nation’s public grade crossings during 2003.
                                                                                                                                                                      11



 Figure 4: Number of Accidents at Public Grade Crossings by State in 2003

                  WA                              17                      22

                                                                         ND                65                                                               2
                  32
                                                   MT                                                                                                      VT
                                                                                           MN
                                                                                                       66                                                        8
                                                                          13                                                                                    ME
             OR                  15                                                                    WI
                                                            3             SD
             20                                                                                                           99
                                  ID                                                                                                                  33
                                                                                                                          MI
                                                       WY                                       56                                                                     1
                                                                                                                                                     NY
                                                                         38                                                                                           NH
                                                                                            IA
                                                                          NE                                                                   69
                       NV                                                                                           131
                                                                                                                                113             PA              15
                                            18                  26                                          135      IN         OH                              MA
  114                  1                                                       49               56           IL
                                                            CO                                                                         30
                                        UT                                     KS                MO                                    W
                                                                                                                          70           V 37                      2
                                                                                                                                                                 RI
        CA                                                                                                               KY               VA
                                                                                    62
                                                                                                                         77                  64                  0
                                       31                   8                       OK            67              TNTN                                          CT
                                                                                                                                             NC
                                       AZ               NM                                       AR
                                                                                                                                        62                      40
                                                                                                       84                               SC                      NJ
                                                                                                                   83          106
                                                                         258                           MS
                                                                                                                   AL          GA
                                                                                                 133
                                                                                                                                                                 6
                                                                          TX                                                                                    DE
                                                                                                 LA
                            0
                                                                                                                                                                16
                                                                                                                                      88                        MD
                                                                                                                                       FL
    HI
                                                                                                                                                                 1
                                                                                                                                                                DC


                                                                        1-50
                                                                                           51-100              101-258
                                                 0 Collisions        Collisions
                                                                                          Collisions          Collisions
                            AK                    (2 States)         (26 States
                                                                                         (15 States)          (7 States)
                                                                     and D.C.)

                       1



    Source: OIG analysis of FRA data


More importantly, 1,810 public grade crossings experienced multiple accidents,
ranging from 2 to 7 accidents per crossing each year, from 1994 to 2003. During
the same period, California, Indiana, Louisiana, Mississippi, and Texas had the
most public grade crossings with multiple accidents. Of the 1,810 public grade
crossings with multiple accidents, we determined 1,055 or 58 percent had active
warning devices and 755 or 42 percent had passive warnings. Each state identified
as having the most public grade crossing accidents and multiple accidents from
1994 through 2003 should develop a state action plan that identifies specific
solutions for crossings that continue to have accidents.

In addition, from 1994 to 2003, 15,938 or 48 percent of the public grade crossing
accidents nationwide occurred at crossings with passive warnings, such as signs
and pavement markings. In 2003, there were 82,328 public grade crossings with
passive warnings. Safety could be improved by monitoring these grade crossings
and installing active warning devices at the crossings that have already had
multiple accidents.
                                                                                 12



Encourage states to install cost-effective physical barriers at public grade
crossings that continue to have accidents, but are already protected with
automated warning devices. Flexible traffic channelization devices and long
gate arms installed at public grade crossings already equipped with active warning
devices increase safety and are cost-effective. The use of these devices is
determined by a state’s highway authority. From 1994 through 2003, 16,962 or
51 percent of the public grade crossing accidents occurred at crossings already
protected with active warning devices. Of these accidents, 26 percent occurred at
public crossings with automatic gates, 23 percent had flashing lights, and 2 percent
were equipped with other types of active devices. In addition, we found that
1,017 or 56 percent of the multiple public grade crossing accidents occurred at
crossings equipped with both flashing lights and automatic gates or flashing lights.

In 2003, we found that 2,368 or 93 percent of the 2,543 public grade crossing
accidents and 242 or 83 percent of the 293 fatalities occurred because drivers
engaged in risky behavior or exercised poor judgment at crossings with active and
passive warnings. All of these fatalities were motorists, with the exception of one
railroad employee. Motorists caused accidents by failing to stop at crossings,
driving around activated automatic two-arm gates, driving through crossings, or
stopping their vehicles on crossings, according to railroad accident reports
submitted to FRA. In addition, 100 or 4 percent of the 2,543 public grade crossing
accidents were attributable to vehicles being stuck, stalled, or abandoned on
crossings. In the remaining 75 or 3 percent of these public grade crossing
accidents, pedestrians were struck by trains or the causes of the accidents were
unknown.

As shown in Figure 5, the use of
flexible    traffic    channelization    Figure 5: Grade Crossing with Flexible
devices (a series of vertical panels         Traffic Channelization Devices
mounted in the center of roadways
near grade crossings) at public grade
crossings already equipped with
automatic two-arm gates help to
mitigate risky driver behavior. FRA
reported to Congress that these
devices can increase safety at gated
crossings by 80 percent, preventing
motor vehicle drivers from weaving
around activated gates. However,
these devices, which in 2003 cost
about $15,000, have not been widely
used by states. As of March 2004,       Source: FRA
                                                                                     13


FRA’s database reported that 8 states—California, Minnesota, Oklahoma,
Pennsylvania, Texas, Virginia, Washington, and Wisconsin—had installed flexible
traffic channelization devices at 23 grade crossings, ranging from 1 to 10 crossings
per state.

Long gate arms, illustrated in Figure
                                              Figure 6: Grade Crossing with
6, extend across three-quarters of the
                                                     Long Gate Arm
roadway, discouraging motorists
from driving around activated gates
and increasing safety at grade
crossings previously equipped with
standard two-arm gates. According
to FRA, these gate arms in 2003
cost, on average, about $5,000, and
can increase safety at a gated
crossing by 75 percent.          FRA
officials were unable to provide
information on the nationwide use of
long gate arms.                          Source: U.S. Department of Transportation


Encourage states to enhance education, legislation, and traffic enforcement to
target risky motor vehicle driver behavior. During the 10 years the
1994 Action Plan was in effect, we found that risky driver behavior or poor
judgment was the leading cause of grade crossing accidents. About 94 percent or
31,035 of the public grade crossing accidents and 87 percent or 3,556 of the
fatalities were attributed to these causes. With the exception of 22 train
passengers and railroad employees, all of these fatalities were motorists.

Enhancing education about grade crossing safety is one way to increase the
awareness of motor vehicle drivers and pedestrians so they will be prepared to
make safe decisions when approaching crossings. Operation Lifesaver, working
with the Department, informs at least 14 million people annually about the dangers
at grade crossings through safety presentations, public service announcements, and
formal training programs.

In addition, the Department has encouraged states to make greater use of photo
enforcement and stricter state/local penalties for grade crossing violations, but its
efforts have not resulted in widespread application of these strategies. Although
these strategies have been shown to mitigate risky driver behavior, they have not
been widely used by states. Of the 10 states we visited, only Illinois had passed
photo enforcement legislation to deter grade crossing traffic violations. However,
the legislation limited the use of photo enforcement to demonstration projects in
one county.
                                                                                 14



Stricter penalties for drivers who violate warnings at grade crossings can also be
an effective way to reduce accidents and fatalities. Only 4 of the 10 states we
visited—Illinois, Mississippi, Tennessee, and Texas—had imposed specific
penalties for motorists’ violations at grade crossings. In 2000, for example,
Mississippi passed legislation that increased the maximum fine for violating grade
crossing laws from $250 to $500. Mississippi’s increased fines and other safety
strategies were effective in reducing public grade crossing accidents and fatalities
from 126 and 16 in 1999 to 84 and 9 in 2003, respectively. States could improve
safety with enhanced education, legislation, and traffic enforcement that targets
motor vehicle drivers who violate grade crossing laws and warnings.

Set goals for closing crossings and encourage states to strengthen their
financial incentives to local governments to achieve goals. Research shows that
closing grade crossings is the most effective way to prevent trains from colliding
with motor vehicles or pedestrians. Closing grade crossings is less costly than
grade separations (separating railroad tracks from roadways). The cost of closing
grade crossings by removing or modifying pavement or installing a barricade and
landscape ranges from $6,000 to $20,000 per crossing. In contrast, grade
separations are costly highway construction projects, averaging from $3 million to
$5 million per location. Figure 7 illustrates before and after views of a grade
crossing that was closed. Figure 8 shows before and after views of a grade
separation where the railroad tracks pass over the roadway.

                       Figure 7: Grade Crossing Closure




 Before                                    After
 Source: FRA
                                                                                  15


                            Figure 8: Grade Crossing Separation




 Before                                                  After
 Source: Irvine, California Department of Public Works


Despite the safety benefits, closures are often difficult to achieve because of local
community opposition linked to concerns about emergency response times, traffic
delays, neighborhood impacts, and public convenience. In part, these concerns
caused the Department to fall short of a separate 10-year goal, established in 1991,
to close 73,210 or 25 percent of the nation’s crossings by 2001. FRA reported that
a total of 40,325 public and private grade crossings were closed between 1991 and
2001—a reduction of 14 percent.

To encourage states to close more grade crossings, the 1994 Action Plan included
initiatives for financial incentives to local governments. Prior to 2000, our
analysis of FRA’s grade crossing inventory data showed that annual closures
averaged about 4,700. Although grade crossing closures continued after 2000, the
pace was much slower. From 2001 through 2003, we determined that the average
number of grade crossings closed dropped to about 2,800 a year.

Although Federal funds are available to states for closing crossings, Federal, state,
and railroad officials told us that the $7,500 financial incentive offered by the
Department for each grade crossing closed and an equal match from the
responsible railroad have proven insufficient to overcome local opposition to
closures. States can supplement Federal incentives with state funds to further
encourage crossing closures. For example, in September 2000, Illinois allowed
the use of up to $300,000 in annual state highway funds as an incentive for closing
grade crossings and approved as much as $35,000 for a single crossing closure.
States could improve grade crossing safety by setting annual goals for closing
crossings and strengthening their financial incentives to local governments for
closing crossings.
                                                                                16


The Department Needs Better Grade Crossing Inventory Data to
Monitor the Effectiveness of the New National Action Plan
The Department will need to closely monitor the effectiveness of strategies
implemented under the new national action plan to identify needed changes and
make adjustments, over the life of the new plan. Accurate and complete inventory
data on the characteristics of all public grade crossings will be needed to monitor
the new action plan’s effectiveness.

We found that 3,272 or 57 percent of the nation’s 5,770 transit grade crossings
were not recorded in FRA’s inventory database in 2002 (the latest year for which
FTA data were available). Further, we determined that the type of warning
devices used at 2,435 or 51 percent of 4,797 new grade crossings that were opened
from 1994 through 2003 were not in FRA’s inventory database. We also visited
36 public crossings and found that 24 or 67 percent were not accurately
documented in FRA’s inventory database. For example, the inventory database
reported that six of the public grade crossings we visited had warning signs or
flashing lights, while we observed automatic gates. We also observed that four
public grade crossings had been closed, but the inventory database reported them
open and protected with warning signs. These issues are similar to those observed
by the National Transportation Safety Board (NTSB) in March 2000, when it
reported that the Department lacked accurate and complete inventory data on
grade crossings, which can be used to assess safety risks.

In addition, little progress has been made to include FTA’s inventory of rail
transit grade crossings in FRA’s data because their database systems are not
compatible and transit operators are not required to report to FRA. Accurate and
complete inventory data on the characteristics of grade crossings are needed to
better target safety improvements for states and grade crossings with the most
accidents. We found that 2 of the 10 states we visited rely on FRA’s inventory
data to prioritize their grade crossings for safety improvements. Although the
Department has the authority to require the mandatory reporting of grade crossing
inventory data through its rulemaking process, Department officials told us that
developing a rule that would be acceptable to states, railroads, and transit
operators would be a long and difficult process.

FRA opted to pursue legislative authority to require states and railroads to report
grade crossing inventory data, but FTA has not pursued similar legislative
authority for rail transit grade crossings. In 1999 and 2002, FRA’s legislative
proposals seeking the authority to require mandatory grade crossing inventory
reporting by states and railroads were not successful. In November 2003, the
Senate passed the Rail Safety Reauthorization Bill, S. 1402, which contains a
                                                                                   17


provision to mandate states and railroads to file initial reports and periodic updates
to the Department’s national grade crossing inventory database.

Without accurate inventory data, it becomes more important for FHWA to review
annual evaluation reports on states’ categorical expenditures of Federal safety
improvement funds. Although states are required to report to FHWA the annual
amount of Federal grade crossing safety improvement funds spent on the
installation of protective devices versus elimination of hazards, we found that only
2 of the 10 states we visited had submitted annual evaluation reports for 3 of the
fiscal years covered in our audit. These evaluation reports should contain essential
information that could also help to direct scarce Federal funds to effective safety
improvements.

RECOMMENDATIONS
On February 2, 2004, we briefed Department officials on the report’s audit results
and recommendations so the information could be considered in drafting the new
national grade crossing safety action plan. We noted that the Department’s draft
action plan addressed three of the areas targeted for improvement that are
presented in the final action plan and this report. The new action plan encourages
states to install flexible traffic channelization devices and other cost-effective
physical barriers at grade crossings that are already equipped with active warning
devices, but continue to have accidents. It also states that the Department will
measure grade crossing safety in terms of accident rates, and assess progress by
conducting a comprehensive evaluation of the plan’s effectiveness.

In addition, we are recommending that the Department in implementing its new
action plan for grade crossing safety:

1. Identifies the states that have the most grade crossing accidents year after year,
   particularly at crossings that have experienced multiple accidents. Each of
   these states should develop an action plan that identifies specific solutions for
   improving safety at those crossings that continue to have accidents.

2. Encourages states to enhance educational programs to increase safety
   awareness, develop legislation to modify risky driver behavior through photo
   enforcement, and increase traffic enforcement strategies, including imposing
   stricter penalties, to target motor vehicle drivers who violate grade crossing
   safety laws and warnings.

3. Encourages states to set annual goals for closing grade crossings and
   strengthen their financial incentives to local governments for closures.
                                                                                 18


4. Identifies a method for including FTA’s data on light and heavy rail transit
   grade crossing accidents and fatalities in the new action plan’s goals and
   statistics.

5. Promotes mandatory reporting requirements for railroads and states through
   rulemaking or legislation to improve the accuracy and completeness of FRA’s
   national grade crossing inventory data, to identify high-risk crossings and
   strategies to mitigate risks. The data should also be used to monitor the
   effectiveness of the new action plan’s strategies, identify needed changes, and
   make adjustments, as necessary. FRA and FHWA should work cooperatively
   to accomplish mandatory inventory reporting.

6. Ensures that states comply with the annual requirement to submit evaluation
   reports to FHWA on expenditures of Federal safety improvement funds,
   including the cost and safety benefits of crossing improvements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to the Office of the Secretary and five
Operating Administrations on April 15, 2004. The Department concurred with our
audit results and all six of our recommendations, and agreed to take corrective
actions. FRA and FHWA provided written comments in response to our draft
report on May 26, 2004, and FTA responded on June 10, 2004. These Operating
Administrations are primarily responsible for implementing the new grade
crossing safety action plan. Their comments are presented in Appendices I, II, and
III to this final report. The Federal Motor Carrier Safety Administration
(FMCSA) and National Highway Traffic Safety Administration (NHTSA)
informed us that they had no significant comments.

Recommendation 1. FRA and FHWA concurred with our recommendation to
work with those states that continue to have the most accidents to develop
individual state action plans beginning in 2005. Specifically, FRA will select a
state that has had the most grade crossing collisions year after year, and with that
state will develop a pilot state action plan. The pilot state action plan will
determine why collisions continue to occur, particularly multiple collisions. After
developing a successful pilot state action plan, FRA will use it with other states
experiencing similar problems. FRA stated that it will encourage states to
optimize their resources for an effective state action plan, including transferring
available surface transportation funds into crossing safety programs.

FHWA agreed to continue to encourage states to address highway safety efforts in
a strategic manner to optimize effective solutions with limited Federal funding. In
                                                                                   19


addition, when FRA initiates its pilot state action plan, FHWA stated that it will
coordinate with FRA to provide support to the states to strategically identify and
address solutions to enhance highway safety.

We consider the proposed actions by FRA and FHWA to be reasonable.
However, we are concerned that FRA has only committed to begin to develop its
pilot state program and has not provided specific dates to start the pilot or to reach
a decision on expanding this pilot program to other states. We request that a more
specific timetable for these actions be provided. Further, because FRA stated that
9 of its 16 grade crossing managers/assistants are either located in or adjacent to
the 6 states that continue to have the most accidents, we suggest that FRA consider
starting a pilot action plan in more than one state in 2005.

Recommendation 2. FRA and FHWA concurred with our recommendation to
encourage states to increase grade crossing safety by enhancing their educational
programs and initiatives. The Department will continue to support and work with
Operation Lifesaver to improve educational efforts. The new action plan makes a
commitment to continue educational efforts and use new avenues, such as the
Internet, to effectively reach more drivers. Additionally, FRA plans to study the
effects current driving laws have on reducing grade crossing violations, including
the amounts of monetary fines. In 2006, FRA will draw on this information to
produce model legislation that states may use to develop laws to reduce risky
driver behavior. In addition, because the Department continues to encourage
photo enforcement to effectively reduce risky driver behavior at crossings, FRA
has included the use of photo enforcement as a means of reducing risk in its
December 2003 Interim Final Rule on the Use of Locomotive Horns. FHWA also
agreed to continue to work with the states and Operation Lifesaver to increase
grade crossing safety awareness and encourage the use of legislation and/or
penalties to modify risky driver behavior.

We consider the actions proposed by FRA and FHWA to be responsive and this
recommendation resolved.

Recommendation 3. FRA and FHWA concurred with our recommendation to
encourage states to set annual grade crossing closure goals. The Department will
continue to promote crossing closures and encourage states to strengthen their
financial incentives to local governments for crossing closures, where appropriate.
The new action plan commits FRA to issuing a revised Crossing Consolidation
Guide by the end of 2004. FRA stated that its grade crossing managers and
assistant managers will continue to work with appropriate entities to close
unnecessary crossings.
                                                                                  20


FHWA will also continue to work with the states to strategically plan for crossing
closures, and the corresponding measures required for such actions. To encourage
states to close additional grade crossings, FHWA will continue to use the
federally-funded incentive program for grade crossing closures established in
FY 1997, under Title 23 of the United States Code (USC), Section 130(i).

We consider the actions proposed by FRA and FHWA to be responsive and this
recommendation resolved.

Recommendation 4. FRA and FTA concurred with our recommendation to
include light and heavy rail transit accident statistics in the new action plan’s
goals and statistics. FRA agrees that the Department’s grade crossing collision
statistics should reflect FTA light and heavy rail transit data, as well as data from
FRA. Further, FRA stated that it is appropriate that the new action plan’s statistics
include both transit and conventional rail accidents and fatalities. To evaluate the
effectiveness of the new action plan, FRA will continue to work with FTA to
integrate the statistics used by both FRA and FTA. FTA also concurred with this
recommendation and agreed to provide FRA with grade crossing accident and
fatality statistics from its National Transit Database, in accordance with the
Department’s new action plan. Starting in 2005, the new action plan’s statistics
will include accidents and fatalities for both FRA and FTA.

We consider the proposed actions by FRA and FTA to be reasonable. However,
FRA did not implement our 1999 recommendation to ensure the timely reporting
of all grade crossing accidents after it agreed to work with FTA to incorporate rail
transit data into the 1994 Action Plan’s statistics. Although FRA and FTA have
agreed to start jointly reporting grade crossing accident and fatality statistics in
2005, there were not enough specifics as to how this proposed action would be
achieved, or when it would happen in 2005. Consequently, we are requesting a
more detailed plan with milestones describing the methods to be used and the time
period covered.

Recommendation 5.             FRA, FHWA, and FTA concurred with our
recommendation to promote mandatory reporting requirements for railroads and
states to improve grade crossing inventory data. FRA agrees that mandatory
reporting of grade crossing inventory data by states and railroads is essential. It
will continue to promote mandatory reporting to the national grade crossing
inventory database, which it maintains. In May 2004, FRA’s rail-safety
reauthorization bill, which contains mandatory inventory reporting requirements,
was presented to Congress for consideration. FRA stated that it will use this
updated grade crossing inventory data to monitor the effectiveness of the new
action plan’s initiatives, and make any necessary adjustments.
                                                                                   21


FHWA will support FRA by encouraging states to voluntarily submit annual grade
crossing inventory data. Specifically, FHWA plans to begin reminding states of
their responsibility to voluntarily report this data no later than September 30, 2004.

FTA fully supports the efforts of FRA and the Department to improve the
accuracy and completeness of FRA’s national grade crossing inventory. FTA is
considering seeking FY 2006 funds for its rail transit Grade Crossing
Characteristics Inventory Database Project, which is an initiative in the new action
plan. This project will allow FTA to design and promote initiatives intended to
reduce light and heavy rail transit grade crossing accidents.

We consider the proposed actions by FRA, FHWA, and FTA to be reasonable.
However, we are concerned about how this recommendation will be implemented
if Congress does not include requirements for mandatory grade crossing inventory
reporting for railroads and states in FRA’s rail-safety reauthorization legislation.
Therefore, we request that FRA and FHWA provide us with their alternative plans
if the legislative proposal is not successful. Further, FRA will need to provide a
plan for how the updated inventory data will be used to monitor grade crossing
safety, along with a completion date for fully implementing this recommendation.
In addition, we plan to monitor FTA’s actions to implement its rail transit Grade
Crossing Characteristics Inventory Database Project.

Recommendation 6. FHWA concurred with our recommendation to ensure that
states submit annual evaluation reports on expenditures of Federal safety
improvement funds. FHWA agreed to reinforce the importance of its requirement
for states to submit annual Highway Safety Improvement Program (HSIP)
evaluation reports. FHWA told us that by September 30, 2004, it will initiate a
specific action to ensure that states provide their HSIP evaluation reports in a
timely fashion, as required by Title 23, and that these reports are made available
when requested.

We consider the actions proposed by FHWA to be reasonable. When completed,
please provide us details on the action taken to ensure that states submit annual
HSIP evaluation reports on time.
                                                                             22




ACTION REQUIRED
The Department’s proposed actions to address recommendations 2 and 3 in this
report are responsive. However, we are requesting additional information on the
proposed actions and target dates for implementing or completing
recommendations 1, 4, 5, and 6. In accordance with Department of Transportation
Order 8000.1C, we would appreciate receiving your written response within
30 calendar days for these four recommendations.

We appreciate the courtesies and cooperation of FRA, FHWA, FTA, FMCSA,
NHTSA, and other Department representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1992 or
Debra S. Ritt, Assistant Inspector General for Surface and Maritime Programs, at
(202) 493-0331.
                                                                                            23




   EXHIBIT A. STATUS OF FRA’S ACTIONS TO
   IMPLEMENT THE 1999 OIG RECOMMENDATIONS

         Recommendation                           Status               Action Taken
Coordinate with FHWA, NHTSA, and             Partially  The new national action plan includes
FTA to focus on cost-effective strategies,   Completed  initiatives encouraging states to use
such as the installation of flexible         (Photo     flexible traffic channelization devices and
median barriers, the use of well-            enforcement and
                                                        other cost-effective physical barriers at
advertised photo enforcement, and the        stricter penalties
                                                        grade crossings that are already equipped
imposition of stricter penalties for grade   have not been
                                                        with active warning devices, but continue
crossing violations.                         completed.)to have accidents.
Monitor, with FHWA, state expenditures       Not        FHWA records state expenditures by the
of funds to determine whether the funds      Completed  category      of    safety     improvement
are used to reduce grade crossing                       (installing protective devices and
accidents and fatalities.                               eliminating hazards). Thus, the cost of
                                                        each grade crossing safety improvement
                                                        project is not readily available.
Develop a separate plan, with realistic Not             FRA has not completed a plan to address
goals, to address trespass and rail suicide Completed   trespassing prevention. However, FRA
prevention, using measures identified as (Outside scope has started collecting demographic data
effective by the Operation Lifesaver of this audit.)    to better identify the trespassing
Trespass Prevention Guide.                              population.      After the population is
                                                        identified, FRA plans to produce targeted
                                                        education, outreach, and law enforcement
                                                        efforts to reduce trespassing.
Coordinate with FTA to ensure the Not                   FRA provided FTA with software for
timely reporting of rail transit grade Completed        incorporating transit accidents into the
crossing and trespassing accidents and                  FRA accident database.             However,
integrate this information with FRA’s                   software incompatibilities have not been
database.                                               resolved.
Periodically reconcile the FRA accident Completed       FRA reconciles the FRA accident
database with the National Response                     database with the National Response
Center rail accident reports to ensure that             Center’s rail accident reports, on a
all grade crossing and trespassing                      monthly basis, to ensure that all grade
accidents are included.                                 crossing and trespassing accidents are
                                                        included in FRA’s accident database.
Establish       mandatory         reporting Not         FRA’s efforts to impose mandatory
requirements with FTA for states, Completed             reporting     requirements      on   states,
railroads, and rail transit operators to                railroads, and rail transit operators have
ensure an accurate and complete national                been unsuccessful. In 1999 and 2002,
inventory of grade crossings.                           Congress did not pass proposed
                                                        legislation to mandate state and railroad
                                                        reporting. FRA awaits action on its 2003
                                                        proposal, which does not include transit
                                                        operators.




   Exhibit A. St atus of FR A’s Actions to Implement the 1999 OIG
   Recommendations
                                                                                 24


EXHIBIT B. SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
Senator Joseph Lieberman, Ranking Member, Senate Committee on Governmental
Affairs asked us to: (1) evaluate the progress the Department has made to improve
grade crossing safety and meet its goal by the end of 2003; (2) assess the
Department’s 1994 Action Plan initiatives to improve grade crossing safety and
actions to complete the 1999 OIG recommendations; and (3) identify best practices,
research studies, and strategies that contribute to reductions in the number of
accidents and fatalities at grade crossings.

To evaluate the progress the Department has made to improve grade crossing safety
and meet its 10-year goals to reduce accidents and fatalities, we analyzed FRA’s
accident and inventory data from 1993, the year before the 1994 Action Plan began,
through the final 2001 statistics reported by FRA. We also analyzed available
preliminary accident statistics for 2002 and 2003. For each year from 1994 to 2003,
we identified the states where accidents most frequently occurred and grade crossings
that had more than one collision. To further assess progress, we analyzed FRA’s
inventory data to identify the number of grade crossings closed and opened each year
from 1994 to 2003. We also interviewed state highway officials about recently
completed and planned grade crossing safety improvement projects.

To assess the results achieved by the Department’s 1994 Action Plan, we conducted
audit work at the headquarters offices of FRA, FHWA, FMCSA, FTA, and NHTSA.
We also contacted all of the FRA Regional offices and conducted work at 17 FHWA
Division offices. Our audit work covered the actions each Operating Administration
had taken to address the 50 grade crossing safety initiatives and the Department’s
actions to implement the 1999 OIG recommendations. To further assess progress, we
obtained the views of railroad and state officials responsible for grade crossing safety
about the Department’s efforts to improve safety. We also discussed Federal and state
efforts to improve grade crossing safety with the NTSB. Exhibit E contains a list of
organizations contacted and sites visited.

To identify best practices, research studies, and strategies that are contributing to
reductions in the number of accidents and fatalities at grade crossings, we used a
statistical probability proportional-to-size sample to select 10 states. We reviewed
grade crossing safety programs in Delaware, Florida, Georgia, Illinois, Kentucky,
Louisiana, Mississippi, Tennessee, Texas, and Virginia. During our visits, we
interviewed FRA, FHWA, and state highway officials responsible for grade crossing
safety, and visited selected crossings.




Exhibit B. Scope, Methodology, and Pri or Audit Coverage
                                                                                 25



We interviewed responsible FHWA and state highway officials about the
improvements made at the identified crossings. We also interviewed representatives
of the major railroad companies, the Association of American Railroads, and
Operation Lifesaver, to identify best practices and strategies that had helped to reduce
grade crossing accidents and fatalities. Further, we reviewed research studies
provided by the Volpe National Transportation Systems Center that focused on
improving grade crossing safety.

We conducted this audit between February 2002 and March 2004, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the United
States.

Prior Audit Coverage

On September 30, 1999, the OIG report on Rail-Highway Grade Crossing Safety,
Report No. RT-1999-140, disclosed that the Department’s efforts had reduced the
number and the rate of grade crossing accidents and fatalities during the first half of
the 1994 Action Plan. However, to make further progress, the OIG recommended that
FRA focus on proven cost-effective strategies, improve the program’s accident and
inventory data, and better monitor state spending of Federal funds. Exhibit A
provides the status of the 1999 OIG recommendations.




Exhibit B. Scope, Methodology, and Pri or Audit Coverage
                                                                                                              26




EXHIBIT C. BACKGROUND
Nationwide, there were 247,232 grade crossings in 2003, of which 151,346 or
61 percent were maintained by public transportation authorities (public) and 95,886 or
39 percent were on roadways owned by private companies or citizens (private).
Typically, public grade crossings are protected by a combination of active warning
devices, passive warnings, or both. Active warning devices—automatic gates,
flashing lights, highway traffic signals, and other automatic devices—are activated by
approaching trains and warn motorists and pedestrians to yield to train traffic. Passive
warnings consist of crossbucks, stop signs, advanced warning signs, pavement
markings, and other non-train activated warnings (flag-waving railroad or law
enforcement personnel) that advise motorists of the presence of a grade crossing.
Some of the warnings commonly installed at grade crossings are shown below.

               Types of Warnings Commonly Installed at Grade Crossings

           Active Warning Devices                                             Passive Warnings
       Automatic Gates     Flashing Lights                              Crossbuck         Stop Sign




Source: Operation Lifesaver                                        Source: Operation Lifesaver


The Department provides set-aside funding to states for grade crossing safety
improvements, primarily through FHWA, under Title 23, USC, Section 130, also
known as the Section 130 program. For public grade crossings, states are required to
use at least half of the Section 130 set-aside funds to install protective devices
(automatic gates, flashing lights, and warning signs). Although the remaining funds
can also be used to install protective devices, these funds are often used for crossing
closures, roadway and railroad track separations, or other projects that eliminate
hazards at crossings. Annual set-aside funding for crossing safety improvements
remained at about $155 million from FY 1999 through FY 2003, under the
Transportation Equity Act for the 21st Century (TEA-21). In addition to the Section
130 funding set-aside, states may spend other Federal surface transportation funds to
eliminate hazards and improve highway and grade crossing safety, and enhance
education and law enforcement efforts.12 Further, working with Operation Lifesaver,
the Department promotes educating the public on railroad safety, disseminating

12
 Funding under the Hazard Elimination Program (Title 23, USC, Section 152) is used to eliminate hazardous conditions on
 highways, public roads, and at grade crossings. Under Title 23, USC, Section 402, funds are provided through NHTSA
 and can be used for approved grade crossing safety categories, such as educational activities.

Exhibit C. Background
                                                                                                                   27


information on new engineering technology, and increasing law enforcement at grade
crossings.

FRA and FHWA oversee grade crossing safety, but the responsibility for improving
crossings and eliminating hazards rests primarily with the states. States are required
to develop and implement, on a continuing basis, a highway safety improvement
program with the overall objective of reducing accidents and decreasing the potential
for accidents on all roadways.13 To predict the likelihood of an accident occurring at
any one grade crossing, the Department requires each state to use a mathematical
formula to develop a priority listing of crossings having a high probability for trains
colliding with motor vehicles or pedestrians. The formulas differ because state safety
officials include variables considered relevant to identifying high-risk grade crossings
in their states, such as accident history, average daily train and motor vehicle traffic,
train speeds, number of tracks, and types of warning devices installed. Some states
consider additional factors, such as the number of school buses and trucks
transporting hazardous materials that drive over grade crossings.




13
  Under Title 23 of the Code of Federal Regulations, Part 924, states are responsible for all highway safety improvements.

Exhibit C. Background
                                                                                                                 28




    EXHIBIT D. STATUS OF 1994 ACTION PLAN SAFETY
    INITIATIVES
                                        Federal Highway Administration
#    Safety Initiative         Major Strategy           Status        Action Taken
1    Checklist                 Enhance Rail             Completed1    FHWA, with assistance from FRA, developed a checklist
                               Corridor                               of items to be considered when performing engineering
                               Crossing                               reviews of rail corridors. Included in the checklist are
                               Reviews and                            items such as warning devices, site improvements
                               Improvements                           options, and consolidation of crossings. The checklist
                                                                      was provided to FRA and FHWA field offices in May
                                                                      1995.
2    Commercial                Enhance                  Completed1    FHWA and the American Association of Motor Vehicle
     Driver's License          Enforcement of                         Administrators sought to elevate grade crossing
                               Traffic Laws at                        violations to “serious” traffic violations for commercial
                               Crossings                              driver’s license holders, as required by 1995 legislation.
                                                                      FHWA issued a notice of proposed rulemaking in March
                                                                      1998. FHWA issued the final rule, which became
                                                                      effective on October 4, 1999.

3    Corridor Review           Enhance Rail             Terminated2   This initiative would have established an incentive
     Participation             Corridor                               program for state and local governments to participate in
                               Crossing                               corridor reviews. A Department bill was offered in 1994,
                               Reviews and                            but was not considered by Congress.
                               Improvements
4    Distribution of           Enhance Rail             Completed1    The Department proposed revising the distribution
     Funds                     Corridor                               formula in FY 1996 and FY 1997 for grade crossing
                               Crossing                               safety improvements funds in new funding legislation.
                               Reviews and                            The proposed formula would have taken into account
                               Improvements                           factors such as the number of crossings and accidents,
                                                                      but the proposal was not adopted by Congress.
5    Incentives for            Enhance Rail             Completed1    The Highway-Rail Grade Crossing Program (Section
     Crossing                  Corridor                               130) was modified to allow using $7,500 per crossing
     Consolidation -           Crossing                               from Surface Transportation Program funds for incentive
     Cash Payments             Reviews and                            payments to local governments for grade crossing
                               Improvements                           closures.
6    Incentives for            Enhance Rail             Completed1    Under legislation requested by the Department, closure
     Crossing                  Corridor                               projects are eligible for 100 percent Federal funding.
     Consolidation –           Crossing                               The necessary legislation was included in the
     Eligibility for           Reviews and                            Department’s FY 1997 Appropriations Bill, and the
     100 Percent Federal       Improvements                           Highway-Rail Grade Crossing Program was modified to
     Funding                                                          allow grade crossing closures be eligible for 100 percent
                                                                      Federal funding.
    Note: Endnotes appear at the end of this exhibit.




    Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                  29



                                         Federal Highway Administration
#     Safety Initiative         Major Strategy           Status        Action Taken
7     Integrated                Enhance Rail             Completed1    FRA and FHWA conducted nine outreach meetings with
      Intermodal                Corridor                               Metropolitan Planning Organizations and railroads in
      Transportation            Crossing                               Texas, Colorado, Pennsylvania, Missouri, Massachusetts,
      Planning                  Reviews and                            Washington, California, Georgia, and Illinois. The last
                                Improvements                           meeting was held in 1995.
8     Signs, Signals,           Improve Data             Completed     The Millennium Edition of the Manual on Uniform
      Lights and                and Research                           Traffic Control Devices (MUTCD) was published in
      Markings - Manual         Efforts                                December 2000.         The Millennium Edition of the
      on Uniform Traffic                                               MUTCD included several changes to part 8 – Traffic
      Control Devices                                                  Controls for Highway-Rail Grade Crossings.
9     National Highway          Enhance Rail             Ongoing       FHWA Division offices work with states to ensure that
      System – Plan             Corridor                               grade crossing issues are considered in the planning
      upgrade or                Crossing                               process. FHWA encourages the states to focus on
      eliminate crossings       Reviews and                            eliminating crossings or installing active warning devices
                                Improvements                           at National Highway System grade crossings, particularly
                                                                       at intersections with principal rail lines.


10    National Highway-         Improve Data             Ongoing       The National Inventory Database is a computer-based
      Rail Crossing             and Research                           inventory of all grade crossings in the United States and
      Inventory –               Efforts                                is maintained by FRA. FHWA periodically encourages
      Promote Updating                                                 the states to keep their crossing inventory current, as
                                                                       required by 23 CFR 924. The most recent reminder was
                                                                       a memo that was sent to field offices on March 8, 2002.



11    Operation Lifesaver       Expand Public            Terminated2   The Department proposed increasing funds to Operation
      Matching Funds            Education and                          Lifesaver with a non-public match required, but the
                                Operation                              Department’s 1994 Appropriations Bill did not enact the
                                Lifesaver                              proposal.
                                Activities
12    Promote Stop Signs        Enhance Rail             Completed     FHWA published “Guidance on Traffic Control Devices
                                Corridor                               at Highway-Rail Grade Crossings” in November 2002.
                                Crossing                               This publication includes guidelines on installing stop
                                Reviews and                            signs at grade crossings.
                                Improvements

     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                  30



                                         Federal Highway Administration
#     Safety Initiative         Major Strategy           Status       Action Taken
13    Signs, Signals,           Improve Data             Completed1   The MUTCD included a new requirement for
      Lights and                and Research                          retroreflective materials on the backs of crossbucks and
      Markings - Signs          Efforts                               on the front and back of their support posts.
      and Signals
14    Truck and Bus             Expand Public            Completed    FHWA, FRA, American Trucking Associations, and
      Involved Accidents        Education and                         Operation Lifesaver developed this program.          In
      – “Trucker on the         Operation                             November 1994, Operation Lifesaver began hosting
      Train” Program            Lifesaver                             trucking executives on locomotives to view dangerous
                                Activities                            rail crossings first hand. In 2001, Operation Lifesaver
                                                                      held 8 “Trucker on the Train” events.
15    Truck and Bus             Expand Public            Completed1   In February 1994, FHWA sent a bulletin to trade press
      Involved Accidents        Education and                         about grade crossing safety.
      – Advisory Bulletin       Operation
                                Lifesaver
                                Activities
16    Truck and Bus             Expand Public            Ongoing      FHWA communicated grade crossing safety issues to
      Involved Accidents        Education and                         industry and law enforcement officials. The National
      - National Safety         Operation                             Safety Council published pamphlets in 1995 and 1997.
      Organization              Lifesaver                             Operation Lifesaver produced two videos in 2000 and
                                Activities                            one in 2002, and continues to educate truck, bus, law
                                                                      enforcement, and emergency responders.
17    Truck and Bus             Expand Public            Completed1   FHWA published an on-guard notice about grade
      Involved Accidents        Education and                         crossing safety in February 1994. The notice was mailed
      - On-Guard Notice         Operation                             to 270,000 interstate motor carriers to alert the truck and
                                Lifesaver                             bus industry of dangers at crossings. Another notice on
                                Activities                            high-profile crossings was issued in February 1996.
18    Truck and Bus             Expand Public            Ongoing      A memorandum encouraging continued discussion and
      Involved Accidents        Education and                         distribution of rail safety materials was sent in December
      - On-Site                 Operation                             1994. Currently, FMCSA reminds motor carriers about
      Compliance                Lifesaver                             the risks at grade crossings during compliance reviews.
      Reviews                   Activities
19    Truck and Bus             Expand Public            Ongoing      Operation Lifesaver educates truck and bus drivers
      Involved Accidents        Education and                         annually. For example, in 2003, Operation Lifesaver
      - Operation               Operation                             educated 133,492 school bus and professional drivers and
      Lifesaver                 Lifesaver                             a total of 1.3 million people attended school bus and
                                Activities                            “Trucker on the Train” events.
20    Truck and Bus             Expand Public            Completed1   FHWA developed print public service announcements
      Involved Accidents        Education and                         and distributed them to the trade press in January 1994.
      - Public Service          Operation                             The articles were targeted to reach state and local
      Print                     Lifesaver                             trucking association newsletters.
      Advertisements            Activities
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                 31



                                         Federal Highway Administration
#     Safety Initiative         Major Strategy           Status      Action Taken
21    Update Highway-           Enhance Rail             Ongoing     FHWA was updating the 1986 version of the handbook
      Rail Crossing             Corridor                             and the revision was expected to be completed in 2000.
      Handbook                  Crossing                             However, the update was put on hold until the MUTCD
                                Reviews and                          was completed. A contractor continues to work on the
                                Improvements                         publication and completion is expected in 2005.
22    Upgrade Signs and         Enhance Rail             Completed   FHWA has sought to make signs and markings more
      Markings –                Corridor                             conspicuous at crossings through use of long-lasting
      Improve                   Crossing                             reflective materials. The MUTCD and “Guidance on
      conspicuity               Reviews and                          Traffic Control Devices at Highway-Rail Grade
                                Improvements                         Crossings” (published in November 2002) require the use
                                                                     of retroreflective materials. The states continue to update
                                                                     their signage.
23    Vegetation                Enhance Rail             Ongoing     FHWA’s Guidance on Traffic Control Devices at
      Clearance                 Corridor                             Highway-Rail Grade Crossings addresses sight distance
                                Crossing                             as one of the three essential elements required for “safe”
                                Reviews and                          passage through at-grade crossings. In addition, FHWA
                                Improvements                         continues to periodically encourage states to clear
                                                                     vegetation around grade crossings.
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                  32



                                         Federal Railroad Administration
#     Safety Initiative        Major Strategy            Status       Action Taken
24    1-800 Computer           Improve Data              Ongoing      Class I railroads (U.S. freight railroads with operating
      Answering System         and Research                           revenue in excess of $272 million a year) have rail
                               Efforts                                systems covering about 70 percent of the grade crossings
                                                                      in the United States. FRA has changed its emphasis to
                                                                      developing software that the small and medium size
                                                                      railroads will be able to use. The software will allow one
                                                                      centralized call-in center to handle calls from all the
                                                                      participating railroads. The software is being assessed in
                                                                      three pilot projects and will be made available for use by
                                                                      states and railroads.
25    Compilation of           Enhance                   Completed1   FRA, working with FTA, NHTSA and FHWA, updated
      State Laws and           Enforcement of                         the 1983 edition of state laws and regulations and
      Regulations on           Traffic Laws at                        distributed this second edition in August 1995. Another
      Matters Affecting        Crossings                              update has been completed and was published in January
      Highway-Rail                                                    2000. The new edition is available on the FRA website.
      Crossing
26    Crossing                 Enhance Rail              Completed    FRA set forth guidelines and strategies based upon case
      Consolidation and        Corridor                               studies in its July 1994 publication, “Highway-Rail Grade
      Closure Case             Crossing                               Crossing: A Guide to Consolidation and Closure.” The
      Studies                  Reviews and                            American Association of State Highway Transportation
                               Improvements                           Officials (AASHTO) also published a report in March
                                                                      1995. In November 2002, FHWA issued Guidance on
                                                                      Traffic Control Devices at Highway-Rail Grade
                                                                      Crossings, including a section on crossing closures.
27    Define Categories        Increase Safety at        Ongoing      FRA is defining categories and minimum standards for
                               Private                                private crossings. Statistics and comments from previous
                               Crossings                              safety inquiries are being reviewed. FRA plans to
                                                                      address the issue of private crossings upon completion of
                                                                      the “Use of Locomotive Horns at Highway-Rail Grade
                                                                      Crossings” rule.
28    Host Research            Improve Data              Completed1   As part of the Department’s 1995 Technology Fair, FRA
      Roundtables/             and Research                           hosted an exchange program to familiarize defense firms
      Workshops -              Efforts                                with industry needs.
      Defense
      Conversion Fair
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                   33



                                         Federal Railroad Administration
#     Safety Initiative        Major Strategy            Status        Action Taken
29    Innovative               Improve Data              Ongoing       Automated video image analysis technology was
      Technology -             and Research                            demonstrated through the Ideas Deserving Exploratory
      Automated Video          Efforts                                 Analysis program and FRA served on the steering
      Image Analysis                                                   committee. Video imaging technology was used on a
                                                                       trial basis to determine the proper functioning of
                                                                       automatic warning devices and vehicle detection at
                                                                       crossings. The feasibility of using this technology to
                                                                       signal an approaching train of a vehicle stopped on the
                                                                       track was tested in Florida. In April 2002, a report was
                                                                       issued finding that this technology “is an important
                                                                       experimental platform that can be used to explore future
                                                                       uses of video and real-time communications to improve
                                                                       crossing safety.”
30    Locked Gate at           Increase Safety at        Ongoing       FRA and FHWA will demonstrate gates with controlled
      Private Crossings        Private                                 locks at private highway-rail crossings. Demonstrations
                               Crossings                               are planned in New York, which has received a $275,000
                                                                       grant, and Oregon, which has selected a demonstration
                                                                       site. Neither project has announced an installation date.
31    National and             Expand Public             Terminated2   FRA sought to support Operation Lifesaver state
      Community                Education and                           coordinators through assigning national service
      Service                  Operation                               participants under the Service Trust Act of 1993.
                               Lifesaver                               However, Americorps funding was not sufficient to
                               Activities                              include this program.
32    Principal Railroad       Enhance Rail              Completed1    FRA defined a national system of principal railroad lines,
      Lines                    Corridor                                developed maps, and encouraged comprehensive
                               Crossing                                engineering reviews of these lines and their crossings.
                               Reviews and
                               Improvements
33    Host Research            Improve Data              Completed1    The Department's National Transportation Systems
      Roundtables/Work         and Research                            Center held a workshop in April 1995 to discuss current
      shops - Research         Efforts                                 and projected research needs. A report was issued on the
      Workshops                                                        proceedings.
34    Resource                 Improve Data              Ongoing       FRA proposed to recalculate the accident prediction
      Allocation               and Research                            formula and rebuild the accident prediction model.
      Procedure                Efforts                                 During peer review of proposed new procedure, it was
                                                                       decided to retain the original. The accident prediction
                                                                       formula was statistically analyzed in 1999 and compared
                                                                       to a re-estimated model developed by the researcher. It
                                                                       was determined that the existing formula was just as valid
                                                                       as the re-estimated formula and that there would not be
                                                                       any added value in changing the existing formula. The
                                                                       current formulas are updated every several years.
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                   34



                                         Federal Railroad Administration
#     Safety Initiative        Major Strategy            Status       Action Taken
35    Responsibilities         Enhance Rail              Completed    The MUTCD states that the responsibility for the design,
      for Selection and        Corridor                               placement, operation, maintenance, and uniformity of
      Installation of          Crossing                               traffic control devices is the public agency or the official
      Signal Devices at        Reviews and                            having jurisdiction. FHWA published “Guidance on
      Public Crossings         Improvements                           Traffic Control Devices at Highway-Rail Grade
                                                                      Crossings” to further assist engineers in selecting traffic
                                                                      control devices at grade crossings.
36    Rules of Evidence        Enhance                   Completed1   The Transportation Research Board researched state laws
                               Enforcement of                         for traffic cases and published the article, “Photographic
                               Traffic Laws at                        Traffic Law Enforcement,” in the December 1996
                               Crossings                              National Cooperative Highway Research Program Legal
                                                                      Research Digest.



37    Safety Inquiry           Increase Safety at        Ongoing      FRA plans to hold an informal safety inquiry about
      (Defining                Private                                standards for certain private crossings upon completion of
      Minimum Safety           Crossings                              the “Use of Locomotive Horns at Highway-Rail Grade
      Standards at                                                    Crossings” rule.
      Private Crossings)
38    Safety Inquiry           Enhance                   Ongoing      FRA continues to evaluate whether or not to hold
      (Enforcing               Enforcement of                         informal meetings about standing rail equipment near
      Railroad                 Traffic Laws at                        grade crossings. Inspection, testing, and maintenance
      Operating Rules)         Crossings                              regulations (49 CFR Part 234) prohibit placing rail
                                                                      equipment where it will interfere with the operation of
                                                                      automatic warning devices.
39    Signs, Signals,          Improve Data              Completed    FRA published the Interim final rule “Use of Locomotive
      Lights and               and Research                           Horns at Highway-Rail Grade Crossings” on
      Markings - Train         Efforts                                December 18, 2003.
      Horns
40    Signs, Signals,          Improve Data              Completed1   FRA developed standards and rules for alerting lights on
      Lights and               and Research                           locomotives. Regulations required that all locomotives
      Markings -               Efforts                                be equipped by December 1997. Further, the MUTCD
      Locomotive                                                      includes changes to improve signage at highway-rail
      Conspicuity                                                     grade crossings. Changes include the application of
                                                                      reflectors to front and back sides of the post for the
                                                                      crossbuck signs, the standardization of four-quadrant gate
                                                                      automatic warning devices, and the inclusion of an
                                                                      emergency notification sign.
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                       35



                                          Federal Transit Administration
#     Safety Initiative        Major Strategy            Status        Action Taken
41    Innovative               Improve Data              Terminated2   FTA sought to evaluate and demonstrate the feasibility of
      Technology -             and Research                            a radar-based system to detect trains and approach speed.
      Radar Activation         Efforts                                 Administrative and contract problems delayed the
      System for Light-                                                demonstration. A substitute project was initiated to
      Rail Crossing                                                    assess 4-quadrant gates using video on the Massachusetts
      Warning Devices                                                  Bay Transportation Authority's new Old Colony Line.
42    Light-Rail               Improve Data              Ongoing       FTA broadened its Safety Management Information
      Accident Statistics      and Research                            System in January 2002, to collect additional data on
                               Efforts                                 transit and highway-rail grade crossing accidents. FTA
                                                                       and FRA continue to work on ways to incorporate light-
                                                                       rail accident data into FRA’s accident database.
43    Signs, Signals,          Improve Data              Completed     FTA investigated safety devices for crossings where there
      Lights and               and Research                            are streets running parallel to light-rail transit, or railroad
      Markings - Light-        Efforts                                 tracks where motorists were permitted to make left turns
      Rail Crossing                                                    across the tracks. The final report, “Use of Left Turn
      Gates for Left                                                   Gates at Highway Railroad Crossing on the Los Angeles
      Turn Lanes                                                       Metro Blue Line,” was issued in December 2002.
     Note: Endnotes appear at the end of this exhibit.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                                                                      36



                             National Highway Traffic Safety Administration
#        Safety Initiative     Major Strategy        Status              Action Taken
                                                                  1
44       Accident Severity     Improve Data          Completed           NHTSA completed a study on accident severity statistics
                               and Research                              in February 1995. A memorandum report was prepared
                               Efforts                                   but not published.
45       Demographics          Improve Data          Completed1          NHTSA published a study of fatality statistics for grade
                               and Research                              crossing accidents in November 1994.
                               Efforts
46       Driver Training       Expand Public         Completed1          NHTSA and the American Association of Motor Vehicle
         Materials             Education and                             Administrators developed a new model driver’s license
                               Operation                                 manual in 1998, with a section describing common grade
                               Lifesaver                                 crossing warning signs, such as the crossbuck.
                               Activities
47       Marketing             Expand Public         Ongoing             NHTSA, FHWA, FTA, FRA, and Operation Lifesaver
         Materials Plan        Education and                             continue to work together to develop programs and
                               Operation                                 materials to promote rail safety.
                               Lifesaver
                               Activities
48       Outreach to           Enhance               Ongoing             Articles have been published in the National Traffic Law
         Judiciary             Enforcement of                            Center newsletter. Outreach presentations were made at a
                               Traffic Laws at                           Traffic Court Judges Seminar. FRA published and
                               Crossings                                 distributed the “Partnering in Safety: Judicial Outreach”
                                                                         brochure in 1998, and in 2000, FRA participated in the
                                                                         making of “It’s Your Call,” which is a video specifically
                                                                         targeting the judicial community.
49       Police Officer        Enhance               Ongoing             FRA employs one part-time law enforcement liaison, who
         Detail                Enforcement of                            conducts extensive outreach activities to both the law
                               Traffic Laws at                           enforcement and judicial communities in Texas and other
                               Crossings                                 states in Region 5. Regional programs were established to
                                                                         permit additional law enforcement officers to work with
                                                                         FRA across the nation; however, emphasis on security and
                                                                         budgetary restraints has limited officer availability. In
                                                                         coordination with Operation Lifesaver, FRA distributed
                                                                         over 1,000 copies of a new professional education video
                                                                         entitled “Roll Call” to law enforcement entities across the
                                                                         United States.
50       Section 402 Funds     Enhance               Ongoing             States can request Section 402 funds to promote targeted
         (23 USC)              Enforcement of                            public education, engineering, and law enforcement
                               Traffic Laws at                           strategies within a comprehensive program approach to
                               Crossings                                 increase grade crossing safety. In 2002, 7 states obligated
                                                                         Section 402 funds for grade crossing safety.

     1
      Safety initiative was reported as completed in 1999 OIG report.
     2
      Safety initiative was reported as terminated in 1999 OIG report.




     Exhibit D. St atus of 1994 Action Plan Safet y I nitiatives
                                                                    37




EXHIBIT E. ORGANIZATIONS CONTACTED OR
SITES VISITED

FEDERAL RAILROAD ADMINISTRATION
Associate Administrator for Safety
FRA Regional Offices
    California          Georgia        Illinois       Massachusetts
    Missouri            Pennsylvania   Texas          Washington


FEDERAL HIGHWAY ADMINISTRATION
Office of Highway Safety
Federal Highway Division Offices
    Arizona             California     Connecticut    Delaware
    Florida             Georgia        Illinois       Indiana
    Kentucky            Louisiana      Michigan       Mississippi
    Missouri            Tennessee      Texas          Virginia
    Washington


NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
FEDERAL TRANSIT ADMINISTRATION

STATE DEPARTMENTS OF TRANSPORTATION
      Arizona           California     Connecticut    Delaware
      Florida           Georgia        Illinois       Indiana
      Louisiana         Michigan       Mississippi    Missouri
      North Carolina    Tennessee      Texas          Virginia
      Washington




Exhibit E. Organizations Contacted or Sites Visited
                                                                     38




OTHER STATE AGENCIES
California Public Utilities Commission
Kentucky Transportation Cabinet


RAILROADS CONTACTED
Burlington Northern Santa Fe
Canadian National
CSX Transportation
Kansas City Southern Railway Company
National Railroad Passenger Corporation (AMTRAK)
Norfolk Southern
Union Pacific


OTHER ORGANIZATIONS CONTACTED
American Association of State Highway and Transportation Officials
Association of American Railroads
National Transportation Safety Board
Operation Lifesaver, Incorporated
      Connecticut Operation Lifesaver
      Indiana Operation Lifesaver
Volpe National Transportation Systems Center




Exhibit E. Organizations Contacted or Sites Visited
                                                                        39




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                            Title

  Debra S. Ritt                   Assistant Inspector General for Surface and
                                  Maritime Programs

  Michael E. Goldstein            Program Director

  Brenda R. James                 Project Manager

  Wendy M. Harris                 Senior Auditor

  Nathaniel K. Adusei             Auditor

  Josephine E. Bates              Auditor

  Hillary H. Larson               Analyst

  Mark A. Stiglitz                Analyst

  Petra Rose                      Senior Statistician

  Harriet Lambert                 Writer-Editor




Exhibit F. Major Contributors to This Report
                                                          40




APPENDIX I. FEDERAL RAILROAD ADMINISTRATION
COMMENTS




  Appendix I. Federal Railroad Administ ration Comments
                                                        41




Appendix I. Federal Railroad Administ ration Comments
                                                        42




Appendix I. Federal Railroad Administ ration Comments
                                                        43




Appendix I. Federal Railroad Administ ration Comments
                                                         44



APPENDIX II. FEDERAL HIGHWAY ADMINISTRATION
COMMENTS




Appendix II. Feder al Highw ay Administration Comments
                                                         45




Appendix II. Feder al Highw ay Administration Comments
                                                         46




Appendix II. Feder al Highw ay Administration Comments
                                                                                                           47



APPENDIX III. FEDERAL TRANSIT ADMINISTRATION
COMMENTS




  SUMMARY

  This draft report presents the results of the Office of Inspector General’s (OIG) second audit of the
  Department of Transportation’s (Department) Highway-Rail Grade Crossing Safety Program. The
  report focuses on public crossings, since they experienced 89 percent (33,153) of all highway-rail
  crossing accidents and 90 percent (4,074) of all fatalities at crossings from 1994 through 2003;
  moreover, Federal Railroad Administration (FRA) funding is directed at public crossings. The audit
  was conducted at the request of Senator Joseph Lieberman, Ranking Member, Senate Committee on
  Governmental Affairs.

  BACKGROUND

  FTA’s Office of Chief Counsel and Office of Transit Safety and Security have reviewed the report
  and concur with OIG’s recommendations 4 and 5; however, we provide some clarification below
  regarding the stark differences between grade crossings in the railroad industry and those in the rail
  transit environment.

  OIG’S RECOMMENDATIONS

      4. Identifies a method for including FTA’s data on light and heavy rail transit grade
         crossing accidents and fatalities in the new action plan’s goals and statistics.

  FTA concurs. FTA’s National Transit Database includes “grade crossing” accidents and fatalities.
  As the OIG has recommended, FTA will provide these data in accordance with the Department’s new
  action plan. However, it is important to recognize the distinctions among the three types of rail transit
  systems: commuter rail, rail rapid transit, and light rail.




Appendix III. Feder al Tr ansit Admi nist ration Comments
                                                                                                            48
FTA-funded commuter railroads (also known as heavy rail) share track with freight rail systems. As
“railroads” within the meaning of the Federal railroad safety laws, commuter railroads report accident
and fatality data to FRA for inclusion in its database just as freight railroads do. Rapid transit
systems (e.g., WMATA, CTA, NYCT, MARTA, BART) operate within dedicated rights of way that
preclude highway grade crossings (except in New York and Chicago, which have two such crossings
each). Since commuter railroad grade crossing data are already included in FRA’s database and rapid
transit systems have virtually no highway grade crossings, the remaining issue is reporting of light
rail grade crossing data.

Light rail systems generally operate on streets along with motor vehicle traffic. As such, the street
crossings of these urban, low-speed, light-weight transit systems are wholly dissimilar from the
highway-rail grade crossings of railroads. The higher speed and massive weight of railroads, and the
relative infrequency of their crossings of highways at grade, make for a significant threat to the safety
of highway vehicles. On the other hand, the movement of light rail systems alongside automobile
movements on and across city streets presents a traffic safety, not a highway-rail grade crossing,
issue.

Some years ago, Congress recognized that there was no Federal program for addressing the safety of
local rail transit systems not subject to FRA’s safety jurisdiction. Given the increasing development
of such systems across the country, Congress addressed the safety of light rail systems in the
Intermodal Surface Transportation Efficiency Act of 1991, requiring that FTA issue a regulation
placing responsibility for the safety of light rail systems on the states in which they operate. Those
states were required to establish a state safety oversight program. 49 U.S.C. 5330. FTA’s
implementing regulation, which appears at 49 CFR part 659, requires the establishment of state rail
safety oversight agencies, which in turn are required to develop and adopt system safety program
standards. Thus, Congress has now provided for the safety oversight of railroads by FRA and light
rail transit systems by state agencies. FTA’s role is one of guidance and assistance; indeed, FTA is
specifically prohibited by statute from regulating the transit systems it funds.

    5. Promotes mandatory reporting requirements for railroads and states through
       rulemaking or legislation to improve the accuracy and completeness of FRA’s national
       grade crossing inventory data, to identify high-risk crossings and strategies to mitigate
       risks. FRA and FHWA should work cooperatively to accomplish mandatory inventory
       reporting. The data should also be used to monitor the effectiveness of the new action
       plan’s strategies, identify needed changes, and make adjustments, as necessary.

FTA concurs and fully supports FRA’s and the Department’s efforts to improve accuracy and
completeness of FRA’s national grade crossing inventory. FTA is considering seeking Fiscal Year
2006 funds to undertake its rail transit Grade Crossing Characteristics Inventory Database Project.




Appendix III. Feder al Tr ansit Admi nist ration Comments
